GR-80-98-031
U.S. DEPARTMENT OF JUSTICE

 
Audit Report
 
 South Dakota Department of Corrections
Boot Camp Construction Initiative
Grant No. 95-SC-LX-0042
GR-80-98-031
August 21, 1998
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the Boot
Camp Construction Initiative, Grant No. 95-SC-LX-0042, awarded to the South Dakota
Department of Corrections (DOC). Our audit covered the period of September 1, 1995,
through March 31, 1997. The $1,350,000 grant was awarded by the Office of Justice Programs
(OJP) on September 30, 1995 and was effective for the period September 1, 1995, through
August 31, 1997.
Generally, the DOC properly managed the grant. Specifically, we found that:


- Costs charged to the grant were allowable and in accordance with grant requirements.
- Adequate local matching funds were provided.
- Not all required progress reports were submitted, and those that were submitted were
    not submitted timely; however, since the final grant report has already been submitted and
    the grant has been closed, we offer no recommendation in this area.
- Program activities were implemented and met the objectives of the grant.


 
#####